HHS/OIG-Audit--"Pension Costs Charged to Federal Programs in the State of Ohio, (A-05-95-00014)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Pension Costs Charged to Federal Programs in the State of Ohio,"
(A-05-95-00014)
August 30, 1996
Complete Text of Report is available in PDF format
(55 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We have completed a limited review of pension costs charged to Federal programs
in Ohio for the period July 1, 1993 through September 30, 1994. The purpose
of the review was to determine whether pension costs charged to grants and contracts
were in compliance with Federal regulations, generally accepted accounting principles
(GAAP), and actuarial standards.
We determined that excessive charges to Federal programs have resulted from
delayed transfers of pension contributions to the Public Employees Retirement
System (PERS). The financial impact was determined to be approximately $380,000
annually on Federal programs administered by the State of Ohio.